Office of Inspector General


June 19, 2014

MEMORANDUM

TO:                  USAID/Afghanistan Mission Director, William Hammink

FROM:                OIG/Afghanistan Acting Country Office Director, Randall Ase /s/

SUBJECT:             Review of Sustainability of Operations at Afghanistan’s Tarakhil Power Plant
                     (Report No. F-306-14-002-S)

This memorandum transmits our final report on the subject review. In finalizing the report, we
considered your comments on the draft review and have included them in Appendix II.

The report contains five recommendations to promote the sustainability of the Tarakhil Power
Plant. We acknowledge your management decisions on all of the recommendations. Please
provide the Audit Performance and Compliance Division with the necessary documentation,
when available, to achieve final action on these recommendations.

Thank you and your staff for the cooperation and courtesies extended to us during this review.




U.S. Agency for International Development
Office of Inspector General
U.S. Embassy
Kabul, Afghanistan
http://oig.usaid.gov
SUMMARY
Increasing access to electrical power has been a top economic priority and key part of
Afghanistan’s National Development Strategy. 1 In 2006, less than 10 percent of Afghanistan’s
national population―and one-third of Kabul’s population―had access to electricity, according to
national utility data. At the time, the country was relying on three old hydropower plants for its
energy needs. To increase the power supply, particularly in the Kabul area, in 2007 USAID
contracted with the Louis Berger Group/Black & Veatch Joint Venture (LBG/B&V) to build the
Tarakhil Power Plant under USAID’s Afghanistan Infrastructure and Rehabilitation Program.

Construction, however, fell behind schedule because of deficiencies with the scope of work,
difficulties in getting title to the land, subcontractor performance problems, and other challenges,
which led to budget overruns. USAID’s final cost to build the plant was approximately $307
million, substantially (144 percent) more than the $126 million originally budgeted.

In June 2010, USAID transferred ownership of the power plant to the Afghan Government’s
Ministry of Energy and Water. The ministry, in turn, charged Da Afghanistan Breshna Sherkat
(DABS), the national utility company, with operating and maintaining the plant.

Following this transfer, USAID provided operation and maintenance (O&M) support through a
$27.7 million contract with LBG/B&V that continued through June 30, 2012. This assistance
included training and mentoring power plant staff. The aim was to build their capacity so that
they could operate and maintain the plant on their own in a reliable and sustainable manner.

At the time of the review, in early 2014, USAID was still providing periodic O&M support to the
power plant to assist with specific repairs. In February 2014, for example, USAID procured
technical services under an existing contract to resolve operational problems in one of the
plant’s three sections or power blocks. USAID was also in the early stages of implementing a
capacity-building project with DABS, funded under USAID’s Power Transmission Expansion and
Connectivity Project. Activities under this project were expected to include additional technical
assistance and training for staff at a number of DABS-operated facilities, including the Tarakhil
plant, as well as support to strengthen DABS’s capacity in areas such as asset management.

Located on the outskirts of Kabul and covering an area of slightly less than 1 square mile,
Tarakhil is a modern power plant. It consists of eighteen 5.8-megawatt diesel engine
generators, housed in three power blocks (A, B, and C) containing six generators each, capable
of collectively producing 105 megawatts of electricity. The plant is pictured on the next page.

The Office of Inspector General (OIG) conducted this review to determine whether DABS was
operating and maintaining the power plant in a sustainable manner to protect USAID’s
investment in the facility. We determined that the plant was not being operated and maintained
in a sustainable manner and was still dependent on external technical assistance to effect
needed repairs, with plant staff requiring further training. The plant was also not used regularly,
but as an emergency back-up supply, and therefore was not increasing Kabul’s power supply to
help reduce its energy deficit, particularly during the winter season, as intended.


1
    Afghanistan National Development Strategy, Energy Sector Strategy, February 2008.



                                                                                                  1
The Tarakhil Power Plant, located on the outskirts of Kabul, has 18 diesel generators capable of
generating 105 megawatts of electricity. (Photo from mission archives, September 2010)

The review disclosed the following:

•   DABS was not using the power plant as intended (page 4). It has been severely underused
    since its handover, generating only 2.2 percent of the power it was designed to produce.

•   Operation and maintenance training did not adequately prepare staff to run the plant
    (page 7). Staff needed further assistance to fix the plant’s malfunctioning computerized
    control systems. They were also not fully capable of maintaining plant equipment.

•   Plant did not track inventory (page 12). Staff did not maintain records of the power plant’s
    large volume of spare parts, consumable supplies, materials, and non-expendable assets.

•   DABS did not give the power plant adequate management support (page 14). DABS did not
    ensure that the Tarakhil plant had ample supplies of spare parts available. The utility
    company also had not developed a proper operating budget for the plant.

The report recommends that USAID/Afghanistan:

1. Perform and document an analysis to identify a more economical and affordable fuel supply
   that would allow the Tarakhil Power Plant to increase its operations and generate power on
   a regular, sustainable basis (page 6).

2. Implement a strategy to strengthen the capacity of Tarakhil Power Plant staff to maintain key
   control systems. At a minimum, this strategy should include training to help technical staff
   diagnose and troubleshoot control system malfunctions on their own and steps to be taken,
   by both USAID and Da Afghanistan Breshna Sherkat, to make a software/systems engineer



                                                                                                   2
   available to the power plant to assist with control system malfunctions and follow up on
   ongoing system-related issues (page 10).

3. Implement a training strategy, which includes milestone dates, for equipping staff at the
   Tarakhil Power Plant with the skills to operate and maintain the plant sustainably (page 12).

4. Implement a strategy, which includes milestone dates, to (1) repair or replace the Tarakhil
   Power Plant’s maintenance management system, (2) provide plant staff with further training
   and supervision in the use of this system to enable them to manage Tarakhil’s inventory
   control functions on their own, and (3) facilitate a comprehensive inventory of the plant’s
   spare parts, supplies, and nonexpendable assets (page 14).

5. Ask DABS management to provide a plan, including milestone dates, outlining the steps it
   will take to strengthen the management support it provides to the Tarakhil Power Plant. At a
   minimum, this plan should include (1) identification and procurement of needed critical spare
   parts for the plant’s inventory, (2) development of a detailed annual operating budget for the
   plant, (3) operation of all plant generators for a minimum of 4 hours per month, and (4)
   review of the staffing patterns at Tarakhil to assess, with input from the plant manager,
   whether existing staff possess the skills required for their positions and whether additional
   staff are required in certain areas (page 15).

Detailed results appear in the following section. The scope and methodology are described in
Appendix I. Management comments on the draft report are included in Appendix II, and our
evaluation of these comments is included on page 16.




                                                                                               3
REVIEW RESULTS
Utility Company Was Not Using
the Power Plant as Intended
The power plant was intended, according to mission records, to fill a gap in the available supply
of power on Afghanistan’s national power grid “to alleviate the acute electrical power shortage
currently being experienced in Kabul.” With this objective in mind, the plant’s engines and
support systems were designed and built for base-load operations, meaning the engines would
be operating and generating power continuously (i.e., 24 hours per day, 7 days per week) to
supplement Kabul’s limited power supply.

Since its handover in June 2010, however, the power plant has been severely underused and
operating at a level far below what it was designed for. Had the power plant been operating as
designed, at the recommended 90 percent capacity, the plant could have produced more than
2.9 million megawatt-hours of electricity from July 2010 to December 31, 2013. Instead, the
plant’s output during this period totaled only about 63,000 megawatt-hours, a small fraction (2.2
percent) of Tarakhil’s potential production capacity. The figure below shows the power plant’s
limited activity.




                                                                                               4
DABS limited operations because it couldn’t afford to operate the power plant at full capacity.
Although in 2007 the government committed to paying for the plant’s fuel and operating costs
starting a year after completion, it later acknowledged it could not afford the fuel and would need
assistance with the other operating costs.

The cost of diesel was a big factor. The power plant’s generators operate on diesel fuel, which
is very expensive in Afghanistan. Operating at full capacity, 24 hours a day, the power plant
would consume more than 600,000 liters of diesel fuel daily, which would cost the plant an
estimated $281 million per year to operate, $245 million for the fuel alone. DABS could not
afford this cost. With the power plant currently generating electricity at an average unit cost of
$0.33 per kilowatt-hour and DABS billing its residential and commercial customers at an
average rate of $0.09 per kilowatt-hour, DABS would have incurred a loss of about $0.24 for
each kilowatt-hour it generated at the power plant. For the plant to operate at a profit, DABS
would have had to quadruple its rates, a move considered unlikely given political sensitivities.

Another factor contributing to the underuse was imported power. Starting in December 2009,
6 months before the plant’s handover, Kabul began receiving imported electricity thanks to the
completion of a multi donor project led by the Asian Development Bank. It involved the
installation of a transmission line to bring in power from neighboring Uzbekistan and Tajikistan.
This line initially gave the city an additional 100 to 110 megawatts of electricity, 2 helping meet
Kabul’s energy requirements. While there was still a strong need for Tarakhil’s power, to further
reduce the energy gap, the imported power became the preferred source of energy since it was
much cheaper than that generated by Tarakhil―about $0.06 versus $0.33 per kilowatt-hour,
respectively.

The circumstances leading to the plant’s underuse, however, were rooted in the original
decision to construct a power plant in Kabul although it lacked a sustainable fuel supply.
According to mission staff, in late 2006 a former U.S. Ambassador pressed USAID to construct
a power plant in Kabul to generate 100 megawatts of additional electricity. One mission
engineer who was present at the time said media reports of families in Kabul freezing to death
prompted the request, which was made out of genuine concern and desire to help the Afghans.

Although USAID claimed to be against building the plant from the very beginning and expressed
concerns about the project, the embassy reportedly “instructed” the mission to push forward
with the plant’s construction. During the design phase, a further concern arose about
sustainability: what kind of engines to install given the absence of an affordable fuel supply to
operate them. Political pressure, coupled with the urgency to build the plant by the winter of
2008-2009, prevented the mission from performing an in-depth study of the fuel issue and
exploring other options.

Because it’s expensive to run, the power plant has been operating merely as an emergency
power source, standing ready to generate electricity for the grid in critical situations, such as
interruptions in the availability of imported power to Kabul due to damaged transmission lines. In
this standby mode, the plant’s generators sit idle most of the time. As a result, despite USAID’s
investment of almost $335 million in its construction and maintenance, the plant is not regularly
contributing additional electricity to increase the power supply in the Kabul area as envisioned.



2
    In September 2011, the imported power received increased to between 240 and 280 megawatts.



                                                                                                 5
This limited activity is also damaging some of the power plant’s equipment. Operating on an
intermittent―rather than a continuous―basis has resulted in more frequent starts and stops,
which place greater wear and tear on the engines and electrical components. An evaluation
performed on the power plant’s operations in April 2011 reported that a plant the size of Tarakhil
should have fewer than 200 starts per year, yet the evaluation team cited one engine at the
plant with more than 8,000 starts since its installation a year earlier. This practice, according to
the evaluation, has resulted in the premature failure of equipment, which over time will increase
O&M costs and could result in “catastrophic failure.”

With the city currently facing a growing energy deficit and continuing power outages, Kabul
needs additional power. An analysis of the electricity supplied to Kabul from October to
December 2013 revealed that the amount of power made available to the city on average was
meeting less than 48 percent of its energy needs, contributing to the power outages 3
experienced by consumers during these winter (peak demand) months. According to a senior
DABS official, the outages in the Kabul area during the winter of 2013-2014 increased by at
least 25 percent over the preceding winter.

At the time of the review, DABS and USAID were exploring opportunities for the power plant to
serve Kabul’s commercial sector. A senior DABS official said the utility had initiated discussions
with local private investors in Kabul seeking a reliable and uninterrupted source of power and
willing to pay a price that would make it profitable. In DABS officials’ initial discussions with
prospective investors, however, only about 20 percent of them expressed interest and a
willingness to pay the proposed rates.

Meanwhile, USAID was expanding on this effort and planned to have an economic study
conducted of viable local options for the power plant. This activity was expected to include a
detailed cost analysis as well as efforts to identify prospective customers willing to pay premium
rates for power (e.g., industrial parks).

Another idea, offered by a mission engineer, involved the construction of a gas pipeline that
would bring natural gas from the Sheberghan area in northern Afghanistan to be used by the
power plant. Tapping into these vast natural gas reserves could offer the power plant a much
cheaper and sustainable fuel supply, significantly reducing its operating costs. While such a
project would likely involve a major investment as well as security risks, it may merit further
consideration in light of the continual, long-term demand for energy in Kabul.

Although it is uncertain whether this problem can be resolved, we support the mission’s initiative
and agree that further efforts are needed to explore alternatives that would increase the power
plant’s usage. Therefore, we recommend the following.

    Recommendation 1. We recommend that USAID/Afghanistan perform and document
    an analysis to identify a more economical and affordable fuel supply that would allow the
    Tarakhil Power Plant to increase its operations and generate power on a regular,
    sustainable basis.




3
 Outages occur for a number of reasons, including insufficient power supply, heightened customer
demand, or load exceeding the capacity of the transformers, overhead lines, and power cables.



                                                                                                   6
Operation and Maintenance
Training Did Not Adequately
Prepare Staff to Run the Plant
USAID awarded LBG/B&V a $27.7 million contract to provide training and mentoring for the
power plant staff. The training was to build their capacity so that they could operate and
maintain the power plant on their own in a reliable and sustainable manner. However, even after
completing the O&M training, staff still were not fully capable of running the power plant on their
own and often were in need of external assistance to address problems with the plant’s
computerized control systems. Staff also were not fully equipped to provide the level of
maintenance required to maintain plant equipment.

Troubleshooting Control System Malfunctions

The power plant relies on computerized control systems that help staff operate and monitor the
generators, circuit breakers, and other equipment connected with power generation. For
example, each of the power plant’s 18 generators has its own computer and operating software,
which allows plant staff to operate the generators “locally” (i.e., manually) and also sends
signals to the Supervisory Control and Data Acquisition (SCADA) or master control system.
Using SCADA, operators can monitor and control generator settings—speed, frequency,
voltage, and other parameters—from a central control panel (shown below).




   The central control panel, in Block B, shows the status of the generators in each of
   Tarakhil’s three power blocks. (Photo by OIG, January 15, 2014)


                                                                                                 7
Operators also rely on another control system to monitor the status of the power plant’s circuit
breakers, located in the plant’s substation (shown below), which connect the power generated
at the plant to the grid. Collectively, these control systems work together to automate the myriad
processes involved in generating power at the plant and are essential to its operations.




The substation at Tarakhil where circuit breakers and other equipment are used to connect the
power generated at the plant to the grid. (Photo by OIG, January 23, 2014)


Unfortunately, since the end of the O&M contract in June 2012, plant staff have had chronic
problems with some of its software-based control systems. Following are a few examples.

 • Just months after the O&M contract ended, staff reported to USAID that the operating
   software in five generator units was malfunctioning, temporarily placing them out of service.
   It was later reported that the software had become corrupted. Although DABS sent
   information technology staff to the plant to repair the units, they were unable to fix the
   problem since they did not know how to reinstall the original software. The plant staff
   eventually managed to load a copy of a working version of the software, taken from one of
   the operable generators, onto some of the nonworking units. The copy was of low quality,
   however, so it was not loaded onto all the units.




                                                                                                8
 • In a separate incident, the plant experienced complications with the software that allows
   generators to communicate with SCADA. The software malfunctioned in November 2012,
   initially affecting all three power blocks. DABS officials sent two engineers who, after
   spending over a month at the plant, managed to wipe the program off the system and
   according to the plant manager, “just made matters worse.” Following this failed attempt, a
   short-term contractor reinstalled the software, obtained from the manufacturer in Germany.
   This allowed the power plant to regain operation, but in only two of its power blocks (A and
   C), with problems continuing in Block B. These problems later triggered a system lockout in
   June 2013, which prevented staff from being able to run―or even perform routine
   maintenance on―any of Block B’s six generators. When the review team visited the plant in
   January 2014, the generators (pictured below) were still out of service.




   Generators in Tarakhil’s Block B remain idle because of a control system malfunction. (Photo
   by OIG, January 23, 2014)

Problems such as these and the inability to fix them quickly stemmed from the sophistication of
the power plant, which is the only one of its kind in Afghanistan and uses advanced technology.
The evaluation conducted on the plant’s operations in 2011 emphasized that staff needed
additional training to operate the equipment and related control systems. It noted that “items
such as the SCADA system that controls the power plant are state-of-the-art, anywhere in the
world. It takes highly qualified and well-trained personnel to operate and maintain these types of
systems.” An engineer in the mission’s infrastructure office commented on the situation and said
that a sizeable gap exists between the technology at the power plant and staff members’ skills.



                                                                                                9
Another factor was the limited training provided on the power plant’s control systems. According
to the plant manager, the O&M training offered some basic instruction on the operating software
but did not cover troubleshooting or how to reinstall software. The training also reportedly did
not cover all key control systems. A November 2011 assessment of the O&M training reported
that it did not cover the technical aspects of SCADA and some of the other control systems
since neither the contractor nor the manufacturer provided the hardware and software required
to provide such training. Without training on troubleshooting, plant staff were unprepared to deal
with many of the problems that arose. A former member of the O&M team who worked at the
plant provided this assessment: “The crew there can start and stop the engines as long as
nothing happens; the problem arises when they are faced with a situation that requires problem
solving on a unit that won't start.”

The problems with the control systems and the power plant workers’ inability to repair them in a
timely manner have placed plant equipment out of service for extended periods, reducing the
power plant’s power-generating capacity. The problem involving Block B is a prime example.
Because of the malfunction of the block’s computerized control system, its generators were
inoperable for 7 months, cutting the plant’s power-generating capacity by one-third.

In February 2014, USAID sent an engineering team, funded under its Afghanistan Engineering
Support Program, to the power plant to address the situation in Block B. After 3 weeks, the team
diagnosed the source of the malfunction―a faulty software code―and repaired it. The team,
however, reported that other issues remained and required further assistance or spare parts.
For example, the team reported that the SCADA software installed at the plant was outdated
and would not operate on newer computers. Consequently, when one of the SCADA computers
fails and needs to be replaced―which is likely to happen at some point―new SCADA software
will be required. New software for the entire plant would cost about $160,000.

Although the generators in Block B were operable as of March 2014, staff need further training
and support so that they will be better equipped to diagnose and handle future problems with
the plant’s many computerized control systems.

In addition, the power plant will require external technical assistance―in the form of a software
or control engineer―from time to time for complex problems. DABS will need to identify a
contractor that can send such an expert to the plant quickly to avoid reducing operational
capacity for extended periods. USAID can help DABS determine the most appropriate means to
acquire such services (e.g., a service contract with the manufacturer for specific control
systems). The utility company, meanwhile, should exercise restraint and avoid attempting to fix
problems that are beyond its capability; otherwise, it may cause further damage, as DABS
engineers did when they attempted to fix the software that malfunctioned in November 2012.

Unless USAID develops a strategy for fixing Tarakhil’s control systems, malfunctions like the
one involving Block B and the other system glitches Tarakhil has faced will gradually cause the
plant to run out of operable generators. Therefore, we make the following recommendation.

   Recommendation 2. We recommend that USAID/Afghanistan implement a strategy to
   strengthen the capacity of Tarakhil Power Plant staff to maintain key control systems. At
   a minimum, this strategy should include training to help technical staff diagnose and
   troubleshoot control system malfunctions on their own and steps to be taken, by both
   USAID and Da Afghanistan Breshna Sherkat, to make a software/systems engineer
   available to the power plant to assist with control system malfunctions and follow up on
   ongoing system-related issues.


                                                                                               10
Doing Routine Maintenance

Of Tarakhil’s 40 O&M personnel, the plant manager considered only 4 (including him) fully
qualified. That is, they had sufficient understanding of the mechanical systems to read the
technical manuals, perform troubleshooting, and direct and supervise maintenance. The
manager felt that at least 12 such staff were needed to operate a plant the size of Tarakhil. He
stated further that while his staff could start and shut down the generators, most were not
capable of performing troubleshooting when problems arose and often did not know what to do.

In a letter to DABS in August 2012, USAID expressed concerns about staffing at the power
plant and asked DABS for assurances that it could acquire, “sufficient technical knowledge and
expertise” to maintain the plant. The former member of the O&M contractor’s team, who worked
at the plant until November 2013, also expressed concerns: “Plant staff does not have the
required experience, knowledge level, or corporate support to make a concerted effort of
maintaining TPP [the Tarakhil power plant].”

Plant staff lacked the needed skills and needed further training for several reasons. One was
the initial training approach used, which was initially ineffective and took time to evolve. The
former member of the O&M team said the training offered during construction and the early part
of the O&M project consisted of classroom videos and written tests, with too little practical,
hands-on application. It also used off-the-shelf materials that lacked relevant content and were
not applicable in Afghanistan. While the training improved under the O&M contract, the team
member felt there was not enough time remaining under the contract by that point to achieve
sustainable success. This shortage of time may explain why the training provided on the plant’s
control systems focused on basic operation and theory and did not cover troubleshooting.

Further, training was not comprehensive. LBG/B&V, for example, provided no training on certain
plant equipment, preventing power plant staff from using it. During a tour of the plant in January
2014, staff pointed out several pieces of equipment, including a large milling machine (shown
below) valued at about $11,000, sitting idle because staff did not know how to use them.




Milling machine (left) and metal lathe (right) provided by USAID sit in a warehouse at the power
plant. (Photo by OIG, January 29, 2014)



                                                                                               11
The departure of a number of trained staff at the end of the O&M contract also contributed to the
plant’s skill shortage. During the project, the contractor used its local staff for many of the
maintenance functions, thinking the locals would continue to work at the power plant after the
contract ended, providing continuity and retaining the high level of skill they had developed.
Unfortunately, when the O&M contract ended, the local staff elected not to continue working at
the plant because the wages DABS offered were much lower than what LBG/B&V paid. Their
departure reduced the number of trained, qualified staff on hand at the plant.

With so few fully qualified staff at Tarakhil, maintenance has lapsed. In addition to certain tasks
being neglected (e.g., staff were reportedly not testing the quality of the fuel and lubricating oil
as prescribed), the shortage has resulted in plant equipment occasionally being damaged. For
example, an air compressor for one of the power plant’s generators was accidentally damaged
when staff did not perform the proper sequence of safety procedures to ensure it was not
inadvertently turned on while undergoing maintenance.

The 2011 evaluation of the power plant’s operations concluded that “Without a continued
dedicated effort in training local personnel, the Tarakhil power plant will quickly fall into a
condition where it is unable to run.” The evaluation further recommended that O&M training be
continued another 3 to 5 years to ensure that staff can keep the plant running.

At the time of the review, the mission was working with DABS to fund further O&M assistance,
under USAID’s Power Transmission Expansion and Connectivity Project. Activities under this
project were expected to include at least 2 years of additional training to help the power plant
staff develop the skills needed to maintain the plant.

Training and fully qualifying local personnel to operate and maintain the sophisticated
technology at the Tarakhil power plant will take time. While we applaud the mission’s continuing
training activities, we believe that any further training provided should build on the lessons
learned from previous O&M training activities. For instance, USAID and DABS should make
greater effort to customize the training by soliciting input from the plant manager and his staff on
the specific areas where training is most needed. In addition, the training should emphasize
practical, hands-on training over formal classroom presentations and should include all pieces
of equipment. Training materials should be in Dari to the extent possible since many staff
cannot read English. Lastly, USAID should include a train-the-trainer component to allow DABS
or the power plant to continue the training on their own after this activity ends.

Having a fully qualified and adequately trained staff at the power plant will require a long-term
commitment but is critical to the successful operation and longevity of the plant. Therefore, we
recommend the following.

   Recommendation 3. We recommend that USAID/Afghanistan implement a training
   strategy, which includes milestone dates, for equipping staff at the Tarakhil Power Plant
   with the skills to operate and maintain the plant sustainably.

Plant Staff Did Not Track
Inventory
Under the power plant’s formal transfer, the Afghan Government assumed full responsibility for
the care and custody of the plant, including its equipment and other property. To help build the
power plant staff’s capacity to maintain the plant, USAID’s O&M support included activities to


                                                                                                 12
assist staff in performing warehousing, inventory, and control using the plant’s computerized
asset management system. This system was designed to help staff perform a variety of
functions, such as exercising inventory control over plant assets, tracking and scheduling
routine maintenance, and generating work orders to request needed spare parts and supplies.
In addition to providing training on this system, LBG/B&V reported that by the end of the
contract in June 2012, it had entered all of the spare parts and tools provided―totaling over
2,000 items―into the system.

Despite the O&M assistance, however, staff were not adequately tracking its inventory.
Examples include the following.

•   No inventory records. Other than LBG/B&V’s list of the nonexpendable assets (e.g.,
    furniture, shop equipment, etc.) provided under the contract, the power plant did not
    maintain inventory records accounting for these assets or the large volume of spare parts
    and consumable supplies it had in stock. Discussions with staff and an inspection of the
    storerooms, revealed that the plant’s inventory system was sorely deficient. Staff stored
    spare parts and supplies, mostly leftover items from the plant’s construction, under lock and
    key, either in a storeroom or in one of the 88 shipping containers located on the premises
    (some pictured below). With no inventory records, the plant’s storekeeper relied on his
    memory to track down specific items. Still, given the large volume of items stored, this was
    often a difficult and time-consuming task, according to the plant manager.




          Shipping containers house spare parts, supplies, and materials, most of
          which were not inventoried. (Photo by OIG, January 15, 2014)

•   Physical inventory not completed. After the O&M assistance ended, the mission asked
    DABS to conduct an inventory of the spare parts, supplies, and assets on hand at the power
    plant. However, at the time of OIG’s visit to the plant in mid-January 2014―19 months
    later―this inventory was still ongoing and taking an excessively long time to complete.


                                                                                              13
Part of the problem stemmed from the malfunction of the power plant’s asset management
system. This system, which staff intended to use to manage inventory, became inoperable 1
month after plant staff took over operations. According to the plant manager, the system’s
software relied on Internet connectivity. Unfortunately, the plant lost Internet access when the
service contract, previously paid for under the O&M contract, ended. When the power plant
resumed service, the software failed to function, and technicians found it had become corrupted.

Another factor was the large volume of spare parts and supplies left behind by the contractor,
which made the inventory process a massive undertaking. Among the supplies stored at the
compound were a large quantity of leftover construction materials―pipe fittings, hoses, etc.
filling at least 60 shipping containers. While LBG/B&V attempted to conduct an inventory,
coverage focused on the spare parts furnished under the O&M contract and did not include
materials left from construction, which represented the bulk of the items to be inventoried,
because of time constraints and a lack of labor.

With no records of existing stock, the power plant staff had no idea how many units of spare
parts and supplies they had on hand, which had run out, or where certain items were stored.
This lack of oversight increased the risk of key spare parts not being available when needed.
According to plant staff, items available locally typically took 2 to 3 months to procure, whereas
items that had to be ordered from outside the country took much longer. For example, a surge
arrestor (transformer) the plant requested in October 2012 to replace a burned out unit had not
arrived as of January 2014.

In addition to the replacement delays, the lack of inventory records increased the possibility of
plant staff requesting spares already in stock. In an interview, the plant manager acknowledged
instances in which his staff had ordered spares only to find out that the items were on hand.

With some replacement parts requiring more than a year to procure, the plant must have a
proper inventory system in place. Otherwise, equipment may remain out of service for an
extended period―possibly causing an interruption in power generation. Therefore, we make the
following recommendation.

   Recommendation 4. We recommend that USAID/Afghanistan implement a strategy,
   which includes milestone dates, to (1) repair or replace the Tarakhil Power Plant’s
   maintenance management system, (2) provide plant staff with further training and
   supervision in the use of this system to enable them to manage Tarakhil’s inventory
   control functions on their own, and (3) facilitate a comprehensive inventory of the plant’s
   spare parts, supplies, and nonexpendable assets.

Utility Company Did Not
Give the Power Plant Adequate
Management Support
When O&M assistance ended, DABS assumed responsibility for the power plant’s operation
and maintenance. This included providing complete staffing, spare parts and supplies as
required, asset management, budgeting, and procurement. In meetings between DABS and
USAID management, before the O&M contract ended, DABS assured USAID that it was
prepared to manage the power plant’s operation and maintenance.




                                                                                                 14
However, the power plant did not always receive adequate management support from DABS.
Several examples follow.

Parts Procured Only as Needed. Since the handover, DABS has procured only a few
replacement parts for the power plant and only as needed. DABS has made little effort to
ensure that the power plant has an adequate supply of spare parts, particularly critical spares, in
its inventory. LBG/B&V reportedly left the power plant with a 1-year supply of spare parts, while
also giving DABS a list of recommended spares to be procured to support operations for 5
years. As of the review, however, DABS had not procured any spares from the list. The plant
manager offered to develop a shortened version of the list, prioritized to reduce the number of
spares to be procured (and the cost), but DABS never responded.

No Operating Budget. Despite the costs involved in operating and maintaining a plant the size
of Tarakhil, DABS did not maintain an operating budget specific to the plant. When asked to
examine the power plant’s budget, DABS could provide only a consolidated budget covering all
of its thermal power plants. It presented maintenance costs as one line item, without providing a
detailed breakdown or showing how much of the budget had been allocated to the power plant.

Excessive Idle Time. Because of the high cost of fuel, DABS did not authorize the power plant
to operate its generators “unless absolutely needed.” The plant manager said that as early as
July 2012, he had relayed to DABS officials the need to operate the power plant’s generators at
least 4 hours per month to keep them in good condition, but received no response from DABS.

Insufficient Staff. Some sections at the plant were not adequately staffed. The plant manager
said the inventory area, in particular, was extremely understaffed given the large volume of
spare parts and supplies. He said that the area should have been staffed by DABS with at least
three people―one responsible for equipment, one for consumable supplies, and one for tools.
Instead, the plant had only one storekeeper, who was not computer literate and could not have
used the power plant’s computerized asset management system even if it had been operational.

DABS attributed some of these support issues to a lack of resources. A senior DABS official
said DABS did not have sufficient financial resources to provide the level of management
support needed. He anticipated that more resources would be available in the near future as the
utility company’s revenue collection―supported under USAID’s Power Transmission Expansion
and Connectivity Project―improves.

By not providing sufficient management support, DABS has not met its responsibility of ensuring
the power plant’s successful operation and maintenance. The power plant’s continued operation
depends on the support it receives from DABS. Without committed support, the plant will
continue to see its equipment fall out of service, jeopardizing the overall sustainability of this
facility. Therefore, we make the following recommendation.

   Recommendation 5. We recommend that USAID/Afghanistan ask the utility company’s
   management to provide a plan, including milestone dates, outlining the steps it will take
   to strengthen the management support it provides to the Tarakhil Power Plant. At a
   minimum, this plan should include (1) identification and procurement of needed critical
   spare parts for the plant’s inventory, (2) development of a detailed annual operating
   budget for the plant, (3) operation of all plant generators for a minimum of 4 hours per
   month, and (4) review of the staffing patterns at Tarakhil to assess, with input from the
   plant manager, whether existing staff possess the skills required for their positions and
   whether additional staff are required in certain areas.


                                                                                                15
EVALUATION OF MANAGEMENT
COMMENTS
The mission provided comments in response to the draft report that are included, without
attachments, in Appendix II. Those comments indicate that the mission made management
decisions on all five recommendations. Our evaluation of those comments is provided below.

Recommendation 1. The mission agreed and made a management decision to perform an
analysis to identify a more economical and affordable fuel supply that will allow the Tarakhil
Power Plant to generate power on a regular, sustainable basis. The mission provided a target
date of September 30, 2014, to close this recommendation. We acknowledge the mission’s
management decision.

Recommendation 2. The mission agreed and made a management decision on the actions to
be taken. To strengthen the capacity of the Tarakhil Power Plant staff to maintain key control
systems, the mission said that it was implementing a strategy through USAID’s Power
Transmission Expansion and Connectivity Project. One of the contracts awarded under this
project included providing guidance and training for power plant staff and oversight of the
operation and maintenance of the plant over the contract’s 3-year performance period.
Concerning Tarakhil’s control systems, contracted activities will include helping DABS assess all
of the plant’s control systems, identifying those that were not fully functional, and assisting with
corrective actions. Activities also involved helping DABS identify O&M activities, including repair
of the control systems, for which outsourcing would be a more practical and cost-effective
solution, while also identifying vendors. The mission set a target date of November 30, 2014 to
close this recommendation. We acknowledge the mission’s management decision.

Recommendation 3. The mission agreed and made a management decision to train Tarakhil
Power Plant staff to operate and maintain the plant in a sustainable manner through activities
being carried out under USAID’s Power Transmission Expansion and Connectivity Project.
Activities under this project include a certification program, involving (a) an assessment of the
basic skills needed by O&M staff to perform the tasks associated with their positions and (b)
identification of the specific training courses needed to become certified for each position to
make sure all O&M positions are staffed with qualified individuals. O&M staff receive training so
that they can become fully proficient in performing all tasks required by their position. Staff are
also trained to implement and maintain the newly developed Computerized Maintenance
Management System, established under the project, which covers all O&M activities. The
mission set a target date of November 30, 2014 to close this recommendation. We acknowledge
the mission’s management decision.

Recommendation 4. The mission agreed and made a management decision to implement a
strategy to address this recommendation through USAID’s Power Transmission Expansion and
Connectivity Project. The project includes the establishment of a comprehensive Computerized
Maintenance Management System covering O&M activities at the Tarakhil Power Plant. Use of
this new system will require performing an inventory of all plant materials, equipment, and
supplies, as well as providing training for O&M staff so that they can independently operate and
maintain the system. The mission set a target date of December 31, 2014 to close this
recommendation. We acknowledge the mission’s management decision.



                                                                                                 16
Recommendation 5. The mission agreed and made a management decision on the actions to
be taken. Rather than asking for a plan outlining proposed measures DABS management would
take to strengthen the management support it gives to the Tarakhil plant, the mission indicated
that steps to improve the management support provided to the power plant were already being
taken under USAID’s Power Transmission Expansion and Connectivity Project. One of the
activities under this project involves training DABS staff to implement and maintain a
Computerized Maintenance Management System, which is expected to support O&M activities
at the Tarakhil Power Plant by helping staff (1) manage the inventory, including critical spare
parts, (2) develop budgets, (3) establish standard operating procedures stipulating the
frequency with which generators are operated, (4) develop an annual O&M plan for base- and
peak-load operation, and (5) establish a certification program that identifies specific skills
needed for staff positions and includes training to make sure all O&M positions are staffed with
qualified individuals. The mission set a target date of September 30, 2014 to close this
recommendation. We acknowledge the mission’s management decision.




                                                                                             17
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General in Kabul conducted this review in accordance with the Quality
Standards for Inspection and Evaluation, as issued in 2012 by the Council of the Inspectors
General on Integrity and Efficiency. The purpose of this review was to determine whether DABS
was operating and maintaining the power plant in a sustainable manner to protect USAID’s
investment in this facility.

The construction of the power plant and subsequent O&M assistance provided was carried out
under two contract task orders awarded by USAID to LBG/B&V under USAID’s Afghanistan
Infrastructure and Rehabilitation Program. According to mission records, the final cost of
construction totaled approximately $307 million, and subsequent O&M assistance cost an
additional $27.7 million.

In June 2010, ownership of the power plant formally transferred to the Afghan Government’s
Ministry of Energy and Water, with DABS, the country’s national utility company, operating and
maintaining the plant. To help DABS fulfill this role, USAID provided contracted O&M assistance
through June 2012, at which time DABS assumed full responsibility for the power plant. This
review focused on the operation and maintenance of the power plant from June 2012 through
February 28, 2014.

In planning the review, we examined prior audit reports issued by USAID OIG and by the
Special Inspector General for Afghanistan Reconstruction on the power plant to identify any
information pertinent to our objective. In addition, the review team examined the mission’s
FY 2013 annual self-assessment of management controls, which missions perform to comply
with the Federal Managers’ Financial Integrity Act of 1982, 4 to determine whether the
assessment cited any relevant weaknesses. The review team also ascertained the extent of
monitoring provided by the mission of the power plant’s operations subsequent to the plant’s
handover to the Afghan Government. The monitoring included periodic site visits to the plant by
mission staff to assess operations, correspondence with DABS management to follow up on
O&M problems, and contact with DABS and the power plant to coordinate contracted, limited-
scope repairs. USAID-funded activities involving the power plant are managed by the mission’s
Office of Economic Growth and Infrastructure.

Fieldwork took place from December 18, 2013, to April 9, 2014, at the USAID/Afghanistan
mission in Kabul. The review team also made three field visits to the power plant, located on the
outskirts of Kabul, during which team members interviewed the plant manager and other staff,
toured the facility, photographed equipment and other aspects of the plant, and examined part
of the plant’s inventory of spare parts and supplies. In addition, we visited the Ministry of Energy
and Water’s main offices in Kabul, where we interviewed a senior planning official.




4
    Public Law 97-255, codified in 31 U.S. Code 3512.



                                                                                                 18
                                                                                     Appendix I


Methodology
To determine whether DABS was operating and maintaining the power plant sustainably, the
review team initially examined mission Implementation Letters outlining the terms under which
USAID formally transferred the power plant and related equipment to the Afghan Government.
Other relevant background documents reviewed consisted of procurement and financial records
relating to the construction and O&M contracts, mission correspondence with DABS
management regarding past O&M issues, prior audit reports and congressional hearings
relating to the power plant, mission portfolio reviews, evaluation reports, and other pertinent
records. In addition, the review team interviewed USAID staff from the mission’s acquisition,
infrastructure, and director’s offices to obtain further background information on the power
plant’s operations. The team also ascertained the extent of USAID’s financial investment in the
power plant and involvement in past and ongoing activities.

In addition to the work performed at the USAID mission, the review team made several field
visits to the power plant complex, where team members interviewed the plant manager and
other relevant staff, toured the facility, inspected the storerooms and other storage areas,
examined selected plant equipment, discussed maintenance procedures, and viewed some of
the control systems in the central control rooms. During the interviews, the team inquired about
the problems and challenges the power plant currently faced, along with the impact of these
problems on plant operations.

We also interviewed senior officials with the Ministry of Energy and Water and DABS, as well as
members of a technical team hired to address a control system malfunction at the power plant.
In addition, we obtained information on the plant’s operating problems from a former contractor
at the power plant, both under the O&M assistance contract and later under a separate contract.

During fieldwork, we also performed several analyses. For example, we computed the amount
of power (in megawatt-hours) that the power plant could have generated during the period from
July 1, 2010, to December 31, 2013, with base-load operation. We compared this amount with
the total power actually generated during that period to determine the extent to which the plant
was being underused. This analysis relied on power production data compiled by LBG/B&V
(from July 2010 to April 2012) and DABS (from May 2012 to December 2013).

Another analysis involved computing the average unit cost for the power plant to generate
1 kilowatt-hour of electricity. We compared this with the average rate charged to customers to
ascertain the extent to which the power plant operates at a loss.

We performed a third analysis to ascertain the extent to which the power supply in Kabul was
meeting demand. This entailed using data furnished by Afghanistan’s National Load Control
Center to compute the average amount of power (in megawatts) available in Kabul from
October 1 to December 31, 2013. We compared this amount with the maximum load capacity in
the Kabul area (actual demand reportedly exceeded this amount) to determine the percentage
of demand being met.

We established a materiality threshold of 15 percent. For example, if the total power produced
by the power plant was less than 85 percent of its recommended operating capacity, we
concluded that the plant was not achieving base-load operation.




                                                                                             19
                                                                        Appendix II



MANAGEMENT COMMENTS


MEMORANDUM                                                     June 7, 2014

TO:               James Charlifue, OIG/Afghanistan Director

FROM:             William Hammink, Mission Director /s/

SUBJECT:          Draft Report on the Audit of USAID/Afghanistan’s Review of
                  Sustainability of Operations at Afghanistan’s Tarakhil Power
                  Plant (Report No. F-306-14-00X-P)

REFERENCE:        JCharlifue/WHammink memo dated May 8, 2014


Thank you for providing USAID/Afghanistan with the opportunity to respond to
the draft audit report on the Review of Sustainability of Operations at
Afghanistan’s Tarakhil Power Plant.

In 2009, high-voltage transmission lines were completed, delivering low-cost grid
power to the North East Power System (NEPS), of which Kabul was the largest
NEPS load center. Diversifying a city power source is a common and responsible
practice in cities throughout the world, and Kabul needed a source of
backup/peaking power generation in case of high demand in winter or failure of
transmission lines bringing in electricity from Central Asia. The 105-Megawatt
Tarakhil Power Plant (TPP) is a vital component of NEPS and provides Kabul with
a reliable power source during winter months, when additional power is needed
(peaking load) or during emergencies when imported power to Kabul is
interrupted. The purpose of the power plant was to improve the quality of life for
those served by Da Afghanistan Breshna Sherkat (DABS), the national electric
utility company. The increase in reliable electricity was expected to extend hours
of operation for businesses and schools and encourage investment in new industrial
and commercial enterprises, creating jobs and economic growth.




                                                                                20
                                                                          Appendix II


The plant was completed in December 2009, and ownership was transferred from
USAID to DABS in June 2010.

We believe TPP has served and will continue to serve a critically important role in
Kabul electricity security. Nonetheless, we do recognize the Government of the
Islamic Republic of Afghanistan needs to improve its management of the power
plant, which will require continued USAID technical assistance.

We welcome the audit recommendations on strengthening Afghan capacity to
operate and manage this important plant as the government aligns with USAID
thinking. Based on work we have already done, we ask that the Office of Inspector
General close four of the five recommendations in the report.


COMMENTS ON OIG’S RECOMMENDATIONS

Recommendation 1. Perform and document an analysis, exploring possible
options available, to identify a more economical and affordable fuel supply
that would allow the Tarakhil Power Plant to increase its operations and
generate power on a regular, sustainable basis.

USAID Comments: The Mission concurs with recommendation 1.
Actions Taken/Planned: USAID will perform an analysis for a more-economical
and affordable fuel supply that will allow TPP to generate power on a regular,
sustainable basis.

Target Closure Date: September 30, 2014.

Recommendation 2. Implement a strategy to strengthen the capacity of
Tarakhil Power Plant staff to maintain key control systems. At a minimum, this
strategy should include training to help technical staff diagnose and
troubleshoot control system malfunctions on their own and steps to be taken,
by both USAID and Da Afghanistan Breshna Sherkat, to make a
software/systems engineer available to the power plant to assist with control
system malfunctions and follow up on ongoing system-related issues.

USAID Comments: The Mission concurs with recommendation 2.




                                                                                  21
                                                                         Appendix II


Actions Taken/Planned: USAID has already implemented a strategy to
strengthen the capacity of TPP to maintain key control systems though our on-
budget project with DABS called PTEC Commercialization Part 2 Contract for
Power Generation, which includes providing guidance and training for DABS TPP
staff and oversight of operations and maintenance of the plant for the three-year
contract period. In addition, USAID, through the off-budget Afghanistan
Engineering Support Program, provided a software/systems engineer to identify
and fix problems in operations of TPP Block B, and additional information that has
been included in the Commercialization Part 2 Contract (see Tab 1, page 1).

Closure Request:
Based on the above, we request OIG concurrence to close Recommendation 2.

Recommendation 3. Implement a training strategy, which includes milestone
dates, for equipping staff at the Tarakhil Power Plant with the skills to operate
and maintain the plant sustainably.

USAID Comments: The Mission concurs with recommendation 3.

Actions Taken/Planned: Under DABS PTEC Commercialization Part 2 Contract
for Power Generation project, a training strategy for TPP staff to operate and
maintain the plain sustainably has already begun. The project includes a
Certification Program, a Computerized Maintenance Management System
(CMMS), and specific training for plant staff (see Tab 1, page 1).

Closure Request:
Based on the above, we request OIG concurrence to close Recommendation 3.

Recommendation 4. Implement a strategy, which includes milestone dates,
to (1) repair or replace the Tarakhil Power Plant’s maintenance management
system, (2) provide plant staff with further training and supervision in the use
of this system to enable them to manage Tarakhil‘s inventory control
functions on their own, and (3) facilitate a comprehensive inventory of the
plant’s spare parts, supplies, and nonexpendable assets

USAID Comments: The Mission concurs with recommendation 4.

Actions Taken/Planned: USAID has already implemented a strategy, in
cooperation with DABS and with milestone dates to (1) repair or replace the


                                                                                   22
                                                                           Appendix II


Tarakhil Power Plant maintenance management system, (2) provide plant
employees with further training and supervision in the use of this system to enable
them to manage Tarakhil inventory-control functions on their own, and (3)
facilitate a comprehensive inventory of the plant spare parts, supplies, and
nonexpendable assets through the PTEC Commercialization Part 2 Contract for
Generation, which includes establishing a comprehensive CMMS. The CMMS
includes inventory of the plants spare parts, supplies, and non-expendable assets,
and training for DABS staff to maintain the CMMS on their own (see Tab 1, page
1).

Closure Request:
Based on the above, we request OIG concurrence to close Recommendation 4.

Recommendation 5. Ask DABS management to provide a plan, including
milestone dates, outlining the steps it will take to strengthen the management
support it provides to the Tarakhil Power Plant. At a minimum, this plan should
include (1) identification and procurement of needed critical spare parts for the
plant’s inventory, (2) development of a detailed annual operating budget for the
plant, (3) operation of all plant generators a minimum of 4 hours per month, and
(4) review of the staffing patterns at Tarakhil to assess, with input from the
plant manager, whether existing staff possess the skills required for their positions
and whether additional staff are required in certain areas.

USAID Comments: The Mission concurs with recommendation 5.

Actions Taken/Planned: The PTEC Commercialization Part 2 Contract for
Power Generation, already being implemented by DABS, includes the CMMS at
TPP for 1) inventory and critical spare parts; costs and budgets; 2) establishing
Standard Operating Procedures and Annual O&M Plan for base and peak load,
including the frequency that generators are operated; 3) and a Certification
Program that identifies specific skills needed for staff positions and recommends
positions requiring qualified individuals. Furthermore, per Section III.D.5 of
PTEC Implementation Letter 22-7, DABS expected contribution to the PTEC
Program includes providing qualified staff in a timely manner (see Tab 1, page 1
and Tab 2).

Closure Request:
Based on the above, we request OIG concurrence to close Recommendation 5.




                                                                                    23
                                                                     Appendix II


Attachments:
     Tab 1: Excerpt from Description of Services for Contract # DABS-91-ICB-
            038, Consulting Services: DABS Commercialization Program Part
            2 for Generation and Transmission
     Tab 2: PTEC Implementation Letter 22-7

cc: OAPA Afghanistan Audit
Clearance Page: Mission Response to OIG Draft Report on the Review of
                Sustainability of Operations at Afghanistan’s Tarakhil Power
                Plan (Report No. F-306-14-00X-P)



Drafters:

OEGI:             JGordon                         Date: 05/22/2014
                  GLin                            Date: 05/22/2014
                  RWardak                         Date: 05/22/2014




Clearances:

OEGI:             CDrilling         via tracker   Date: 05/22/2014
OAA:              KBryant           via tracker   Date: 06/05/2014
OFM:              KFall             via tracker   Date: 05/22/2014
RLO:              JSouthfield       via tracker   Date: 06/05/2014
Exec. Asst.:      PClark            via tracker   Date: 06/05/2014
DMD:              CBryan            via tracker   Date: 06/07/2014


OAPA:             NRuzika           via email     Date: 06/03/2014
                  GS, SRAP          via email     Date: 06/04/2014




                                                                               24
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
